<html>
<title> - BUILD ACT OF 2018; UNITED STATES-ISRAEL SECURITY ASSISTANCE AUTHORIZATION ACT OF 2018; HACK YOUR STATE DEPARTMENT ACT; ENERGY DIPLOMACY ACT OF 2018; INTERNATIONAL SECURITY ASSISTANCE ACT OF 2018; AND GLOBAL ENGAGEMENT CENTER AUTHORITIES ACT OF 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




      BUILD ACT OF 2018; UNITED STATES-ISRAEL SECURITY ASSISTANCE 
   AUTHORIZATION ACT OF 2018; HACK YOUR STATE DEPARTMENT ACT; ENERGY 
 DIPLOMACY ACT OF 2018; INTERNATIONAL SECURITY ASSISTANCE ACT OF 2018; 
          AND GLOBAL ENGAGEMENT CENTER AUTHORITIES ACT OF 2018

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

              H.R. 5105, H.R. 5141, H.R. 5433, H.R. 5535, 
                        H.R. 5677, and H.R. 5681

                               __________

                              MAY 9, 2018

                               __________

                           Serial No. 115-127

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

30-017 PDF                     WASHINGTON : 2018 




























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 5105, To establish the United States International 
  Development Finance Corporation, and for other purposes........     2
  Amendment in the nature of a substitute to H.R. 5105 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    80
      Amendments to the amendment in the nature of a substitute 
        to H.R. 5105 offered by:
          The Honorable Gerald E. Connolly, a Representative in 
            Congress from the Commonwealth of Virginia (#1)......   160
          The Honorable Gerald E. Connolly (#67).................   161
          The Honorable Eliot L. Engel, a Representative in 
            Congress from the State of New York (#3).............   163
          The Honorable Eliot L. Engel (#4)......................   165
          The Honorable Lois Frankel, a Representative in 
            Congress from the State of Florida...................   167
          The Honorable William Keating, a Representative in 
            Congress from the Commonwealth of Massachusetts (#64)   169
          The Honorable William Keating (#65)....................   170
          The Honorable William Keating (#66)....................   171
          The Honorable Edward R. Royce..........................   172
          The Honorable Brad Sherman, a Representative in 
            Congress from the State of California (#54)..........   175
          The Honorable Brad Sherman (#58).......................   176
          The Honorable Brad Sherman (#60).......................   177
          The Honorable Brad Sherman (#62).......................   178
          The Honorable Norma J. Torres, a Representative in 
            Congress from the State of California................   179
H.R. 5141, To make improvements to certain defense and security 
  assistance provisions and to authorize assistance for Israel, 
  and for other purposes.........................................   181
  Amendment in the nature of a substitute to H.R. 5141 offered by 
    the Honorable Edward R. Royce................................   210
      Amendments to the amendment in the nature of a substitute 
        to H.R. 5141 offered by:
          The Honorable David Cicilline, a Representative in 
            Congress from the State of Rhode Island..............   234
          The Honorable Mark Meadows, a Representative in 
            Congress from the State of North Carolina............   236
          The Honorable Joe Wilson, a Representative in Congress 
            from the State of South Carolina.....................   237
H.R. 5433, To require the Secretary of State to design and 
  establish a Vulnerability Disclosure Program (VDP) to improve 
  Department of State cybersecurity and a bug bounty program to 
  identify and report vulnerabilities of internet-facing 
  information technology of the Department of State, and for 
  other purposes.................................................   238
  Amendment in the nature of a substitute to H.R. 5433 offered by 
    the Honorable Ted Lieu, a Representative in Congress from the 
    State of California..........................................   246
H.R. 5535, To amend the State Department Basic Authorities Act of 
  1956 regarding energy diplomacy and security within the 
  Department of State, and for other purposes....................   255
  Amendment to H.R. 5535 offered by the Honorable Adam Kinzinger, 
    a Representative in Congress from the State of Illinois......   260
H.R. 5677, To revise and improve authorities relating to 
  international security assistance, and for other purposes......   261
  Amendments to H.R. 5677 offered by:
      The Honorable Eliot L. Engel...............................   288
      The Honorable Ted Lieu.....................................   290
      The Honorable Edward R. Royce..............................   292
      The Honorable Ted S. Yoho, a Representative in Congress 
        from the State of Florida................................   294
H.R. 5681, To amend the National Defense Authorization Act for 
  Fiscal Year 2017 to clarify certain responsibilities of the 
  Global Engagement Center of the Department of State, and for 
  other purposes.................................................   295
  Amendment to H.R. 5681 offered by the Honorable Brad Sherman...   303

                                APPENDIX

Markup notice....................................................   332
Markup minutes...................................................   333
Markup summary...................................................   335

 
      BUILD ACT OF 2018; UNITED STATES-ISRAEL SECURITY ASSISTANCE 
   AUTHORIZATION ACT OF 2018; HACK YOUR STATE DEPARTMENT ACT; ENERGY 
 DIPLOMACY ACT OF 2018; INTERNATIONAL SECURITY ASSISTANCE ACT OF 2018; 
          AND GLOBAL ENGAGEMENT CENTER AUTHORITIES ACT OF 2018

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up six bipartisan 
measures. Without objection, all members may have 5 days to 
submit statements or extraneous material on today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. And so, without objection, the 
following items previously provided to members--by the way, 
these are also in your packets. These will all be considered en 
bloc and are considered as read.
    We start with 5105. This is the BUILD Act, Mr. Yoho's the 
BUILD Act. The Royce amendment in the nature of a substitute 
and the following amendments: Connolly amendment 1 and 67; 
Engel amendments 3 and 4; Frankel amendment No. 34; Keating 
amendments 64, 65, and 66; Royce amendment 112; Sherman 
amendments 54, 58, 60 and 62; and Torres amendment 90.
    Now we have H.R. 5141, the U.S.-Israel Security Assistance 
Authorization Act. The Royce amendment in the nature of a 
substitute and the following amendments: Cicilline amendment 
139; Meadows amendment 128; Wilson amendment 54.
    Then we have the Hack Your State Department Act, H.R. 5433. 
We have the Lieu amendment 115 in the nature of a substitute to 
the bill.
    We have H.R. 5535, the Energy Diplomacy Act, with the 
Kinzinger amendment 27.
    H.R. 5677, this is the International Security Assistance 
Act, with the Engel amendment 1, the Lieu amendment 111, the 
Royce amendment 111, and Yoho amendment 116.
    And lastly, we have H.R. 5681, the Global Engagement Center 
Authorities Act and the Sherman amendment 56.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. And I will now recognize myself to speak on 
today's business.
    So first, we have H.R. 5677. This is the International 
Security Assistance Act.
    And the rise of terrorist groups like ISIS and al-Qaeda and 
Boko Haram, Al Shabaab, this has required a substantial 
expansion of the programs that help our partners defend 
themselves. So the State Department is charged with overseeing 
these important efforts.
    This bill, this bipartisan measure, improves the 
Department's management of U.S. security assistance, including 
military assistance and military education and training. And 
the bill also strengthens congressional oversight over proposed 
designations of state sponsors of terrorism. I will explain to 
you why this was necessary.
    Under current law, to delist a state sponsor of terrorism 
the administration only needs to certify that the country has 
refrained from supporting terrorist activity for a mere 6 
months. The administrations from both parties have abused this 
process, most notably in 2008 when North Korea was prematurely 
delisted following commitments it made to dismantle its nuclear 
weapons program.
    Now, what this bill does is to make sure that that does not 
happen again.
    And next, we consider Chairman Yoho's H.R. 5105. This is 
the BUILD Act.
    After months of bipartisan work with the administration, I 
am very pleased that we can advance this bill, which will help 
the United States take a more strategic approach to 
international development and economic empowerment in emerging 
markets.
    By harnessing the power of finance and the expertise of our 
Nation's development professionals under one modern 
institution, we can advance America's interests and offer 
countries a robust alternative to investments by authoritarian 
governments, such as what is happening with respect to Beijing.
    And I really want to thank Congressman Yoho, but also all 
the members of this committee who have been engaged in 
supporting him in this effort with the amendments and the focus 
on this issue.
    Next, we have Representative Schneider's H.R. 5681. This is 
the Global Engagement Center Authorities Act.
    And under this bill, and with some help from Adam 
Kinzinger, the GEC at the State Department, of course, has this 
important mission of countering propaganda and disinformation 
from foreign states, as well as terrorist groups like ISIS. 
This bill strengthens the Center's leadership role and directs 
it to coordinate related activities across the administration.
    And, again, I appreciate the strong bipartisan interest 
that members have shown on this issue. And in particular, I 
want to note the work that goes on, not only on this committee, 
but also in the NDAA, where Representative Kinzinger, who was 
an early advocate of the GEC and has continued here to help 
drive, along with Brad, the oversight efforts, he has made an 
effort there to address it in the National Defense 
Authorization Act.
    Next, I want to thank Representatives Ros-Lehtinen and 
Deutch for their leadership on H.R. 5141. This is the United 
States-Israel Security Assistance Authorization Act.
    Our partner Israel continues to face threats in every 
direction, from state and from nonstate actors bent on 
destroying the Jewish state. Iran, in particular, has taken its 
aggression to Israel to new heights, if you are looking at the 
missiles that have been placed in Syria there on the border.
    This bipartisan bill deepens and updates our security 
partnership with Israel to ensure that Israel can defend 
itself, by itself, in the face of these evolving threats.
    And next, we have H.R. 5535. This is the Energy Diplomacy 
Act.
    As America's energy production has increased and our 
technologies have improved, our Nation's influence in global 
energy policy has grown. So I applaud Chairman McCaul and 
Ranking Member Engel for crafting bipartisan legislation to 
ensure that the State Department has the leadership and 
direction to support America's energy diplomacy.
    Finally, we have H.R. 5433. This is the unusually named 
Hack Your State Department Act.
    The 2014 breach of the Department's unclassified computer 
network exposed grave weaknesses in its public-facing 
information technology systems.
    This bill, sponsored by Representative Lieu and Chairman 
Yoho, will help address cybersecurity gaps at the Department by 
establishing a bug bounty pilot program. This is based on the 
Department of Defense's successful Hack the Pentagon Program. 
And what this does is it encourages white hats, white hats 
security researchers, to discover and report vulnerabilities, 
hence the name of this.
    And I now recognize the ranking member, Mr. Engel of New 
York, for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this markup.
    We have six good measures before us today. I am happy to 
support them all. And as always, I want to thank all members on 
both sides of the aisle for their hard work.
    The first measure on our agenda today is the BUILD Act, a 
proposal from Representatives Yoho and Adam Smith to transform 
the Overseas Private Investment Corporation, or OPIC, into a 
development finance institution.
    It has been more than a decade since our committee made 
revisions to the OPIC charter and now we need new approaches to 
the way our Government uses credit programs to spur economic 
development and tackle poverty around the world.
    Promoting global prosperity is a major goal for our foreign 
policy, and economic assistance and development credit is an 
essential tool for achieving that.
    I want to highlight for my colleagues that this legislation 
carries forward existing law and policies regarding the 
protections of workers' right and the environment, and I 
support moving the bill forward.
    Next, I would like to thank Chairman Royce for bringing 
forward his bill, the International Security Assistance Act. 
This measure strengthens the State Department's role in 
coordinating American security assistance to other countries.
    This is a job for our diplomats. In recent years, we have 
seen more and more of the State Department's responsibilities 
trickle to other agencies. And this is a trend we need to stop. 
So I strongly support this bill.
    It is important that we strengthen our international 
security partnerships with our allies. So I would like to thank 
Representatives Ros-Lehtinen and Deutch, the chairman and 
ranking member on the Middle East and North Africa 
Subcommittee, for their leadership on the U.S.-Israel Security 
Assistance Authorization Act.
    This legislation codifies the 2016 Memorandum of 
Understanding on assistance signed by the United States and 
Israel and shepherded by the Obama administration. This MOU and 
the assistance that comes from it represent the unbreakable 
bond between the United States and Israel and the shared 
interests and values that have been the hallmark of our 
relationship. We cannot put a dollar amount on this 
relationship, but what President Obama accomplished in this MOU 
showed the strength of these ties.
    The legislation also includes provisions authored by 
Representatives Boyle, Schneider, Kilmer, Crist, and Langevin 
to enhance all the dimensions of the U.S.-Israel relationship, 
from cybersecurity to drone detection to space exploration.
    Cybersecurity must also be a top priority when it comes to 
our own Government. And that is why I am proud to support the 
Hack Your State Department Act offered by Representatives Yoho 
and Lieu. This bill will strengthen the State Department's 
cybersecurity in two ways.
    Firstly, it will require the Secretary to take a hard look 
at the Department's cyber vulnerabilities.
    Secondly, it will establish a pilot program in which the 
State Department will reward people who identify unknown 
security risks in the Department's computer systems. These 
ideas are modeled on programs being used successfully in the 
Department of Defense, and the private sector as well.
    This bill will help strengthen our cyber defenses, and I 
urge all of our members to support it.
    Advancing America's energy security is also a vital aspect 
of U.S. foreign policy. Congressman McCaul's Energy Diplomacy 
Act of 2018 addresses this critical issue. Congress must ensure 
that the State Department is able to protect and promote our 
energy policies abroad.
    This bill helps in that effort by creating an Assistant 
Secretary of State for Energy Resources and requiring the 
Secretary of State to make sure that the State Department has 
personnel dedicated to energy diplomacy and security.
    I support this measure and I hope all members will do the 
same.
    Another important measure for our security is the Global 
Engagement Center Authorities Act offered by Congressmen 
Schneider and Lieu. The Global Engagement Center is charged 
with leading the interagency effort to counter Russia and other 
states that use information warfare to undermine democracies.
    Representatives Kinzinger and Lieu played an important role 
in establishing this mission, and the Center's work is more 
important now than ever. Congress made $120 million over the 
past 2 years available to the GEC, specifically to counter 
foreign propaganda and disinformation.
    Despite that urgent need, the administration has not used 
any of this funding. I don't know why. And their self-imposed 
hiring freezes have prevented them from doing this critical job 
effectively.
    This legislation will update the Center's authorities and 
enhance this committee's ability to conduct oversight so that 
we can put the Center in a better position to succeed.
    I support this bill along with the other measures we are 
considering today. I again thank all our members on both sides 
of the aisle.
    And I yield back. Thank you, Mr. Chairman.
    Chair Royce. Thank you, Mr. Engel.
    You know, the ONE Campaign, representatives of the ONE 
Campaign that have provided a lot of technical policy feedback 
to us and also a lot of advocacy, we want to thank them and 
other advocacy groups that are supporting the BUILD Act.
    And I will just ask those advocacy groups, the ONE 
Campaign, if they could stand to be acknowledged for a minute. 
We appreciate your engagement and involvement here today.
    [Applause.]
    Chairman Royce. Thank you.
    We go now to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for bringing forth these bipartisan 
measures before us this morning.
    I would like to speak in support of H.R. 5141, the United 
States-Israel Security Assistance Authorization Act of 2018, a 
bill I authored alongside my dear friend and fellow south 
Florida colleague, Ted Deutch.
    We all know the threats that the democratic Jewish State of 
Israel faces, and we all know how valued our friendship is with 
our partners in Jerusalem. A strong and secure Israel is in the 
best interest of the United States, and a strong and secure 
America is in the best interest of Israel.
    This is precisely why Ted and I authored this bill, first 
and foremost, to ensure that Israel has what it needs in order 
to defend herself and her citizens from the myriad of threats 
that she faces. We will authorize security assistance for 
Israel at levels at no less than $3.3 billion a year, in 
accordance with the Memorandum of Understanding of 2016, for 
the next 5 years.
    We will also ensure that the War Reserves Stockpile 
authority for Israel, which may now include precision-guided 
munitions, will also be authorized for the next 5 years. We 
also make sure that loan guarantees for Israel are extended for 
the next 5 years.
    What we are doing is guaranteeing Israel peace of mind for 
the next 5 years and signaling that the bipartisan support for 
Israel in the United States Congress is strong and getting 
stronger.
    With Iran creeping ever closer to Israel's borders and 
threatening to attack Israel from the north, our friends need 
the support now more than ever.
    We also authored this bill to ensure that we take our level 
of bilateral cooperation to even greater heights.
    I want to commend and thank Congressmen Langevin, Kilmer, 
Boyle, and Schneider for the work that they have previously 
done that helped to contribute to the bill before us today.
    There is so much that we can do to strengthen the U.S.-
Israel relationship. This bill is an important step in that 
direction. I urge my colleagues to support this bill, and I 
hope that we can bring it to the floor in the near future.
    I would also like to say a few words about enterprise 
funds, Mr. Chairman. I have worked closely with these funds and 
have authorized the creation of a Jordan Enterprise Fund of the 
Jordan defense bill, which I authored alongside Ted Deutch.
    USAID has had the purview over enterprise funds, and I 
believe that USAID should remain the lead agency responsible 
for enterprise funds. We know what we are getting with the 
current set up. USAID has learned valuable lessons to make 
these more effective and more valuable U.S. foreign policy 
tools. We should continue to support the current structure and 
functionality of the enterprise funds and use our strengths at 
USAID to grow them.
    Thank you, Mr. Chairman, for that opportunity. And I yield 
back.
    Chairman Royce. Just if I could respond briefly, because 
existing funds will stay at USAID, just to reassure the 
gentlelady. And under the BUILD Act, they will, USAID, of 
course, is still going to have a role, just to assure you of 
that.
    And now we go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Just briefly, I support all of the six bills in front of us 
and congratulate our colleagues for their hard work.
    I would like to highlight two amendments, and I thank the 
chair and the ranking member for including them in the en bloc 
acceptance package.
    The first amendment codifies the USAID Administrator's 
involvement in the selection of the Chief Development Officer 
for the U.S. International Development Finance Corporation. The 
Chief Development Officer will coordinate the Corporation's 
development of policies and implementation efforts with other 
development agencies, and as such, it is a critical leader of 
America's premier development agency, so that person has a say 
in that selection process.
    This amendment is consistent with the goal of the Global 
Partnerships Act, a comprehensive reorganization of the Foreign 
Assistance Act, to strengthen the role of the USAID 
Administrator and to empower USAID as the lead development 
agency of the United States Government.
    We had a hearing on this, and this amendment kind of grew 
out of that conversation. So, again, I thank the chair.
    And finally, the second amendment clarifies that the BUILD 
Act is covered foreign assistance pursuant to the Foreign Aid 
Transparency and Accountability Act, FATAA, which I introduced 
with my friend Ted Poe. This committee requires the President 
to establish guidelines on measurable goals, performance 
metrics, and monitoring and evaluation plans for foreign aid 
programs.
    That act is bringing needed transparency to an often 
misunderstood part of the Federal budget. Its implementation 
should be part and parcel of any discussion on reforming U.S. 
foreign assistance.
    This amendment ensures that the new U.S. development 
finance institution will be subject to the same rigorous 
transparency and accountability standards as any other foreign 
assistance program.
    With that, Mr. Chairman, I yield back.
    Chairman Royce. Thank you, Mr. Connolly.
    We go now to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Like my other colleagues, I am very glad to be supporting 
all six bills. But I want to focus especially on H.R. 5141. I 
thank Chairwoman Emeritus Ros-Lehtinen for her extraordinary 
leadership in introducing this bipartisan bill along with Mr. 
Deutch. It is a very, very good bill and, hopefully, it becomes 
law sooner rather than later.
    The bill responds to a crisis of converging threats that 
imperil the security of our closest ally, Israel. Iranian 
forces and their terrorist proxies now surround Israel from 
nearly every direction.
    With Iranian support, Hezbollah continues to amass a 
dangerous arsenal of thousands of advanced rockets--some put it 
at 150,000--that threaten main population centers in Israel.
    Hamas, along with Iranian backing, threatens Israel from 
the south and west with terror tunnels, rocket barrages, and 
now with a cynical campaign that manipulates civilian protests 
and uses so-called human shields to threaten Israel's sovereign 
border.
    To the east in Syria, Iran continues to carve out strategic 
outposts where it can station advanced weapon systems and 
fighters to challenge Israel's defenses.
    Faced with this constellation of fanatical enemies, Israel 
cannot spare a moment's vigilance, and neither can we, for the 
sake of our close friend and ally. By authorizing enhanced 
military cooperation between our countries and further 
enshrining Israel's qualitative military edge, H.R. 5141 
guarantees that Israel will remain far and away our most 
capable ally.
    The bill authorizes foreign military financing at an annual 
level of not less than $3.3 billion agreed to in the bilateral 
MOU negotiated under the Obama administration. But crucially, 
the bill specifies that the assistance should not be less than 
$3.3 billion, a clear statement that this MOU constitutes a 
floor rather than a ceiling.
    The bill's other provisions facilitate the transfer of 
advanced precision-guided missiles for Israel's use and lays 
the groundwork for bilateral cooperation that will assist 
Israel in confronting an evolving landscape of threats, 
including from unmanned aerial vehicles, cyber attacks, and 
nonstate actors.
    The many facets of cooperation supported by this bill, from 
international development to space exploration to 
cybersecurity, make this a very, very important bill, not just 
for Israel but also for our security as well.
    I thank the chairlady for her leadership.
    Chairman Royce. Thank you, Mr. Smith.
    We go to Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. Thanks to you and Mr. 
Engel for bringing forward a good slate of bills today.
    And while I support all of the measures before us, I would 
like to focus my remarks on H.R. 5141, the U.S.-Israel Security 
Assistance Authorization Act.
    I am proud to have introduced this legislation with my dear 
friend and south Florida colleague, Chairman Emeritus Ros-
Lehtinen. I also want to thank Mr. Boyle and Mr. Schneider for 
contributing key portions of this bill.
    And I would like to take a moment, if I may, to recognize 
and commend the incredible legislative contributions that 
Chairman Ros-Lehtinen has made to the U.S.-Israel relationship 
over her nearly 30 years in Congress. This bill is yet another 
example of her commitment to Israel's safety and security and 
to strengthen the U.S.-Israel relationship, and it has been my 
honor to support her in that effort.
    The United States and Israel share an unbreakable bond 
rooted in our mutual security interests and our shared values 
of democracy and freedom. This is a relationship that has stood 
strong through both Republican and Democratic Presidencies, 
through Republican- and Democratic-controlled Congresses, and 
it has done so because support for Israel has always been, and 
must always be, bipartisan.
    Today, it is my hope that Congress will once again reaffirm 
that bipartisan commitment to Israel's security by sending this 
good bill to the floor.
    The U.S.-Israel Security Assistance Authorization Act 
codifies the 2016 Memorandum of Understanding between our two 
countries that provides Israel with an unprecedented amount of 
security assistance, $38 billion over 10 years. These funds 
ensure that Israel will have the means to procure the 
capabilities it needs to defend itself. In addition, nearly all 
of that money comes back to the United States and supports 
American jobs.
    This bill also enhances Israel's current capabilities by 
endorsing the provision of precision-guided weapons to the War 
Reserves Stockpile, which Israel can draw upon in times of 
conflicts. It strengthens Israel's qualitative military edge to 
meet new threats. And it authorizes cooperation between our 
countries on UAVs.
    The bill also broadens our relationship outside of the 
security and defense sectors. It expands cooperation on cyber, 
space, and includes authorization for a global MOU between 
Israel and USAID to engage in joint humanitarian assistance 
projects throughout the world.
    Just this week, we have seen the terrorist group Hezbollah 
make gains through Lebanon's parliamentary elections. We have 
watched as Iran establishes a permanent military presence in 
Syria and continues its support for terrorists. There were 
reports just yesterday of impending escalation between Iran and 
Israel.
    We have seen weeks of violence at the Gaza border as Hamas 
attempts to breach the Israeli border, just as they have 
attempted to do through their terror tunnels.
    We here in Congress must do everything we can to prevent 
Iran from acquiring nuclear weapons capability, and we must 
also ensure Israel's ability to defend itself against all 
threats. These threats are real. They are not just a threat to 
Israel, they are ultimately a threat to our own security 
interests in the region.
    I remain committed to Israel's long-term security and 
safety. I remain committed to peace. And I remain committed to 
a strong and thriving U.S.-Israel relationship.
    I would like to thank the many members of this committee 
who are cosponsors of this bill. And, again, I would like to 
thank Chairman Royce, Ranking Member Engel, and especially 
Chairman Emeritus Ros-Lehtinen. I urge the passage of this good 
bill.
    Thank you, Mr. Chairman.
    Chairman Royce. We go now to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    We have a number of excellent bills before us today, but I 
am going to keep my remarks brief because I also have a markup 
in the Judiciary Committee going on right now, and at 11 
o'clock I have to chair the Small Business Committee.
    Chairman Royce. We want to encourage you and everyone else 
to do the same.
    Mr. Chabot. I will be very brief. But I just do want to 
express my support for H.R. 5141, the U.S.-Israel Security 
Assistance Authorization Act of 2018. As a longtime supporter 
of Israel and as a cosponsor of this legislation, I want to 
thank Ms. Ros-Lehtinen and Mr. Deutch for their leadership both 
on this bill and on the many issues affecting Israel and the 
Middle East as a whole.
    Israel is one of our most important allies, without a 
doubt, and shares our values in a part of the world that so 
often sees authoritarian governments trample on the most basic 
of human rights. We must remain committed to our partnership 
with Israel, especially as they face the ongoing Iran 
challenge.
    So with that, I would urge my colleagues to support the 
legislation, as well as the other bills before us this morning.
    And I think I was brief. And I will yield back my time.
    Thank you.
    Chairman Royce. Mr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    And once again I will echo the sentiment that I appreciate 
the work of the chairman and the ranking member in bringing 
this bipartisan package of bills to the floor.
    I want to just take a brief moment to talk about the 
amendment offered by the ranking member, Mr. Engel, dealing 
with major defense partners in the International Security 
Assistance Act.
    This amendment is a continuation of Congress' work to 
strengthen our relationship with India, particularly in the 
defense sphere. In 2015, we help make India a major defense 
partner. What we hoped that would do is enable India's access 
to a wide range of dual-use technologies at levels equivalent 
to our major allies, like NATO, Japan, South Korea, and 
Australia.
    And last year in the NDAA we required a unified interagency 
definition of the major defense partner to standardize it 
across the bureaucracy. That was our intent. But I know we 
still have concerns about the implementation of the major 
defense partner designation. That is why Ranking Member Engel's 
amendment is so critical.
    For arm sales, their review and approvals, it puts major 
defense partners like India on the same level as our NATO, 
South Korea, Japan, Australia, New Zealand, and Israeli allies. 
It adds real teeth to the designation at a time when our 
relationship with India is more important than ever.
    So I thank the ranking member for offering the amendment 
and the committee for supporting its inclusion in the en bloc 
package.
    And if I may, I would like to yield some time to my 
colleague from Rhode Island, Mr. Cicilline.
    Mr. Cicilline. I thank the gentleman for yielding. I, too, 
have a markup in Judiciary and wanted to just say thank you to 
the chairman and the ranking member for bringing the bills 
before the committee. I am proud to support all of the bills on 
our agenda.
    I wanted to specifically thank the ranking member and the 
chairman for including my amendment in the en bloc to H.R. 
5141. This is an issue I have worked on for a number of years. 
And my amendment will build on the initiatives included in the 
bill on cybersecurity by requiring a report from the Secretary 
of State examining the potential benefits of creating a U.S.-
Israel Cyber Center of Excellence.
    As we cooperate more with our ally Israel on cyber issues, 
I think we should be exploring the possibility of establishing 
a more permanent collaboration and a joint venture between the 
United States and Israel, between our educational institutions, 
so that we can share best practices on cybersecurity.
    A Cybersecurity Center of Excellence would bring together 
leaders in academia, the private sector, the nonprofit 
community, and government agencies to research and develop new 
strategies for preventing cyber attacks.
    This amendment asks the Secretary of State to explore the 
potential benefits and any pitfalls or disadvantages that this 
might produce from establishing such a center and report that 
back to Congress. I am, of course, hopeful it will set the 
context to move forward on this idea.
    And I really want to thank the chairman and ranking member 
for agreeing to include this on the en bloc amendments and urge 
support of the balance of all of the legislation, and thank the 
gentleman for yielding.
    And with that, I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    We now go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Chairman Royce and Ranking Member 
Engel, for holding today's markup with all the amendments and 
the bills, especially H.R. 5105, the BUILD Act.
    I would like to thank you, Chairman Royce, and your team, 
in particular Andy Taylor, for your assistance over the past 
year in crafting this important legislation, along with our 
partners in the Senate, Senator Corker and Senator Coons. I 
would also like to thank James Walsh on my team, who did the 
yeoman's work to bring this bill to this stage.
    Today America is confronting unprecedented instability and 
growing humanitarian crises around the world, all of which have 
a direct impact on our national security and economic interests 
at home. The effective deliverance of foreign assistance is 
crucial, especially in the current fiscal climate in which it 
is imperative for the U.S. Government to use each and every 
dollar more efficiently and, of course, more effectively.
    The BUILD Act will help ensure the United States delivers 
foreign assistance in an efficient way and effective manner by 
catalyzing the private sector to invest in developing 
countries. This is a break from the old model of spending $1 in 
a country in the form of foreign aid, often not getting a long-
term return, versus investing in a country's infrastructure 
and/or economy, a way of moving from aid to trade.
    U.S. businesses have capital to invest and lead the world 
in the understanding of capital markets and sophisticated 
financial transactions. Despite our corporate advantages, other 
countries, especially China, are using development finance 
institutions more effectively to expand their influences in the 
developing world.
    Our tools for development finances are dispersed across too 
many Federal agencies, and the primary U.S. development agency, 
OPIC, has not been significantly updated since its creation in 
1971. If one were to compare an automobile from 1971 to today's 
high-tech vehicles, I think we will all agree there have been 
some significant changes.
    The BUILD Act is such a vehicle that will modernize our 
foreign finance development and bring it into the 21st century. 
This legislation will become an instrument that will project 
into the future and to help guide the foreign policies of the 
United States, and that this and subsequent administrations can 
use to create stronger relationships with needed countries and 
the future partners in economies and trade.
    A modernized Development Finance Corporation is imperative 
to capitalizing upon those changes and will help transition 
countries again from aid to trade. And if you look at our top 
15 trading partners, 12 of those were recipients of foreign 
aid. This bill's goal is to help facilitate that transition.
    We want to help countries become robust trading partners in 
the United States. By doing so, we will be helping create 
stable, sufficient societies around the world and open up new 
markets for U.S. goods and services.
    There is truth in the saying, a rising tide lifts all 
boats. The BUILD Act will help make this a reality. And I thank 
you for your consideration and support.
    I yield back.
    Chairman Royce. Thank you, Mr. Yoho.
    Again, this is going to allow us to double the book of 
business in terms of development finance, but it is also going 
to mobilize a lot of private capital; and something else we 
can't do right now, which is to work with our partners, the 
British and others on the ground. So we thank the committee 
members for their support.
    Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair. And I want to thank Mr. 
Royce and Mr. Engel for your bipartisan leadership and all my 
colleagues for their good work on these bills, which I support.
    I would like to highlight, too, just the following.
    Mr. Yoho, I thank you for your sponsorship of H.R. 5105, 
the BUILD Act of 2018. And I thank the chair and ranking member 
for putting my amendment, which I am going to talk about, in 
the en bloc amendment.
    So I am calling attention to a provision that urges the new 
Development Finance Corporation, which this bill establishes, 
to work to improve women's economic opportunities and outcomes 
and takes steps to mitigate gender gaps, which are very, very 
significant.
    It also requires the corporation to measure development 
outcomes broken down on gender basis, tracking whether women 
are reaping the benefits of this support.
    Some of you may remember that a few weeks ago we 
unanimously passed out of this committee the Women's 
Entrepreneurship and Economic Empowerment Act, recognizing that 
when women are educated and given the tools for economic 
success, their communities are safer, stronger, and more 
peaceful.
    If women, who account for half the world's working-age 
population, do not achieve their full economic potential the 
global economy will suffer. And as the chairman said, I think 
it was last week, Mr. Royce, that advancing women's economic 
equality toward parity with men could add trillions, and I mean 
trillions and trillions of dollars to the global GDP in just 7 
years.
    So this bill before us will allow the new corporation to 
empower women. I will give you an example, like Manjula from 
India, who worked 15 years in a garment factory, long hours and 
barely any pay. She dreamed of starting her own business so she 
could buy a house, educate her daughter. The problem was she 
had no access to capital until she received a small loan from a 
micro finance institution supported by OPIC.
    And with that, not only did Manjula start her own factory, 
she created dozens of jobs, paying workers fairly so they can 
provide for their families and making their community more 
secure and peaceful. And stories like this show that investing 
in women is not only humane, it is good economic sense, 
trillions of dollars of economic sense.
    As I said this before, I will say it again, when women 
succeed, the world succeeds.
    I also want to highlight and support H.R. 5141, the U.S.-
Israel Security Assistance Authorization Act. Again, I am going 
to compliment, as my colleagues did, Representatives Ros-
Lehtinen and Deutch.
    This bill recognizes Israel's right to defend itself and 
writes into law the continued cooperation between our two 
countries. With yesterday's decision from President Trump to 
withdraw the U.S. from the Iran nuclear agreement, ensuring our 
great friend and ally is safe and has all the resources it 
needs to protect itself is more important than ever.
    And when you look at the neighborhood, there is reason to 
be worried: Hamas in the Gaza rebuilding its rocket arsenal and 
calling for Israel's destruction, Iran constructing its 
military bases in Syria, ISIS wreaks havoc in the Sinai, while 
Hezbollah in Lebanon points 150,000 missiles at Israel.
    So we must do all we can to strengthen Israel's defenses. 
And this important bill codifies the Memorandum of 
Understanding signed by the Obama administration with Israel, 
the largest U.S. military assistance package ever, and it also 
expands U.S.-Israel cooperation in areas of mutual interest, 
like establishing a U.S.-Israel cybersecurity research and 
development grant program and authorizing USAID to enter into 
an agreement with Israel to help lift low-income countries.
    In an increasingly polarized Washington, Israel can never 
be a partisan issue. Defending Israel is in our national 
security interest.
    So I urge support of all these measures, and I, again, 
thank everyone for their bipartisan support.
    I yield back, Mr. Chair.
    Chairman Royce. Thank you. Thank you, Congresswoman 
Frankel.
    We have Adam Kinzinger from Illinois.
    Mr. Kinzinger. Well, thank you, Mr. Chairman. And thanks 
for bringing up this great slate of bills before us today. And 
I want to thank both sides of the aisle.
    I want to thank my colleague from Illinois, Mr. Schneider, 
for building on the work Congressman Lieu and I began last 
Congress.
    Following the 2016 election, it was determined by the heads 
of American intelligence agencies that Russia had developed and 
executed a strategy to influence the American elections through 
online propaganda operations. While it can't be disputed that 
the operation occurred, there is no evidence that this 
information operation affected the outcome of the election.
    This kind of action is a direct assault on American 
democracy, and the United States needed the proper tools to 
defend its interests against this type of foreign manipulation.
    In response, Congressman Lieu and I introduced the 
Countering Foreign Propaganda and Disinformation Act of 2016, 
which was later included in the fiscal year 2017 National 
Defense Authorization Act.
    This legislation created the Global Engagement Center with 
the purpose of streamlining our counterpropaganda efforts. 
Unfortunately, the State Department, under its previous 
leadership, squandered over two-thirds of the congressionally 
allocated funds that were to be transferred to the GEC from the 
Department of Defense, resulting in delayed efforts to counter 
propaganda. We now have an opportunity to correct course.
    I am a cosponsor of H.R. 5681, the Global Engagement Center 
Authorities Act, along with my colleagues, Mr. Schneider and 
Mr. Lieu. This bill will strengthen the organization by 
mandating the GEC take a more direct approach to countering 
both state and nonstate actor propaganda around the world.
    This legislation isn't about politics, and there have been 
some sad attempts to make this about politics. This is purely 
about ensuring that the United States has the proper tools to 
combat all forms of online propaganda, whether being spread by 
Russians or being spread by ISIS.
    We know that state actors are already working to influence 
the upcoming midterm elections, and we need to ensure that our 
Government is fighting against these kinds of assaults on our 
democracy, not to mention the democracies of our friends. I 
urge my colleagues to join me in supporting this legislation.
    And also, I would like to quickly discuss an amendment that 
I have offered to Congressman McCaul's Energy Diplomacy Act. 
This simple amendment, only nine words long, would ensure that 
the personnel working on energy diplomacy issues within the 
Department of State do so in coordination with the Department 
of Energy.
    This addition will help integrate our domestic and foreign 
policies relating to energy resources, energy technologies, and 
nuclear nonproliferation.
    I urge my colleagues to join me in supporting this 
amendment.
    Mr. Chairman, I yield back.
    Chairman Royce. Thank you.
    Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman Royce and Ranking Member 
Engel.
    I want to also congratulate all the members whose 
bipartisan bills are being considered here today. The bills 
considered here today address important issues in the world and 
I am pleased to support all of them.
    Thank you to Ileana Ros-Lehtinen and Representative Deutch 
for introducing the bill today authorizing security assistance 
to Israel.
    For decades, Israel and the United States have had a strong 
partnership that is based on shared values. Given the 
precarious position Israel occupies in the Middle East and the 
proliferation of challenges in the region with Iran's malign 
activity and the crisis in Syria, it is important that the 
United States supports Israel by guaranteeing a robust security 
assistance package.
    I would also like to commend my friend Representative Mike 
McCaul and Ranking Member Engel in introducing the Energy 
Diplomacy Act to ensure the United States continues global 
leadership as an innovator in energy technology and practices.
    I also voice my support for the Hack Your State Department 
Act, introduced by Representatives Lieu and Yoho. This 
important legislation will bring much-needed improvements to 
the State Department's cybersecurity apparatus. This measure 
also comes at a time when cybersecurity is increasingly 
necessary to protect the interests of the United States and the 
well-being of our citizens, including our diplomats.
    In recent years we have seen a new form of information 
warfare waged through the internet by terrorists group like al-
Qaeda, ISIS, and state actors, such as Russia. The Global 
Engagement Center in the State Department is an important 
office to counter these activities and set the record straight.
    I was pleased to lead a letter with my colleague Ted Lieu 
of California in March urging then-Secretary of State Rex 
Tillerson to explain why the State Department had not used any 
resources allocated to this Center in 2017 to counter foreign 
propaganda designed to influence elections and undermine 
democracies, just as Russia did in the U.S. Presidential 
election.
    This legislation introduced by Representatives Schneider 
and Lieu strengthens and defines the activities of the Global 
Engagement Center, and I am pleased to support this legislation 
that will help the United States counter propaganda.
    Also, regarding the International Security Assistance Act 
of 2018, international security assistance is an important tool 
for U.S. diplomacy and congressional oversight over this facet 
of our foreign policy, and it is very critical.
    I would also like to thank Ranking Member Engel for his 
amendment improving the ability of the United States to have a 
closer defense partnership with India. The U.S.-India defense 
and security relationship is an anchor of our engagement in the 
Indo-Pacific, and this should be welcomed. And I look forward 
to greater cooperation with India that this measure will 
enable.
    And finally, the BUILD Act of 2018. The Asian Development 
Bank noted that there is a $26 trillion infrastructure gap in 
Asia that restricts the ability of the region to reach its full 
economic potential. Other regions, including the Americas and 
Africa, are in desperate need for investment as well.
    Some countries have taken advantage of this demand by 
pursuing government-financed infrastructure investment, often 
with low standards, that leave countries in debt and beholden 
to their lenders. We rightly criticize these practices, but we 
must also provide alternatives for countries that can become 
important economic partners to the United States with the right 
investments.
    One of the strengths of our country has always been our 
engaged and dynamic private sector, whose investments abroad 
need to be leveraged as an instrument of our foreign policy. 
The BUILD Act does precisely this by empowering government to 
better support these international investments by U.S. firms 
that keep in mind the responsibilities we have to respect the 
dignity of labor and the environment. And I support all of 
these measures, and I know that my colleagues will as well.
    Thank you.
    Chairman Royce. We go know to Chairman Mike McCaul of 
Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    The bills before us are critical to strengthening U.S. 
engagement and protecting our national security interests 
across the globe. I would like to commend the bipartisan 
efforts of my colleagues, and I look forward to advancing these 
measures on the floor.
    I also would like to thank Chairman Royce for including my 
legislation, the Energy Diplomacy Act, as part of this markup. 
Across the globe, our friends and allies are looking for a 
stable and reliable supply of American energy. However, regions 
such as Eastern Europe and our allies are still living under 
the heavy hand of Russia, a destabilizing regime that 
constantly exploits the vulnerabilities posed by Europe's 
reliance on their natural gas.
    Since coming to Congress, I have advocated for a foreign 
policy that helps alleviate our allies' reliance on 
unpredictable regimes to meet their energy needs. In 2015, I 
helped champion the repeal of the outdated crude oil export 
ban. Now U.S. producers are finding new customers in both Asia 
and Europe.
    But we must go a step further, and that is why I offered 
the Energy Diplomacy Act. This legislation elevates the Bureau 
of Energy Resources at the State Department by replacing the 
international energy affairs coordinator with an Assistant 
Secretary to carry out the Department's functions 
internationally on behalf of the United States. It also ensures 
the State Department is staffed with sufficient personnel to 
support this mission.
    This will empower the State Department to promote and 
advance a bold energy diplomacy abroad.
    So, again, I would like to thank Chairman Royce and Ranking 
Member Engel for holding this important markup and supporting 
my legislation. And with that, I yield back.
    Chairman Royce. Thank you.
    We go now to Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman and Ranking Member 
Engel. Thank you both for continuing this extraordinary 
bipartisan work of this committee.
    I am proud to support all six bills today, including to 
cosponsor H.R. 5141, the United States-Israel Security 
Assistance Authorization Act.
    This important bill will further enhance our cooperation 
with Israel and help to ensure that Israel would always be able 
to defend itself, particularly in light of the recent clashes 
in Syria and at Israel's northern border. We must work to 
prevent a military escalation in this region.
    It remains imperative that the U.S. does its part to help 
our ally Israel protect itself from all threats, and this 
package will just help do that.
    In addition to that, I support H.R. 5105, the BUILD Act, 
which will establish the International Development Finance 
Corporation. This bill moves to improve the allocation of U.S. 
private assets in international development. And I am 
encouraged that this legislation, with broad support, will 
promote growth and economic partnerships between the United 
States companies and foreign countries.
    The projects built from this will help to combat poverty, 
hunger, and health crises, while furthering labor and human 
rights, protecting the environment, and promoting American 
entrepreneurship.
    H.R. 5433, the Hack Your State Department Act, is a crucial 
piece of legislation to improve cybersecurity at the State 
Department. We have learned the hard way the lessons of not 
being prepared to prevent cyber attacks, and we must all work 
together to prevent, in our democracy, future cyber threats.
    Provisions in this legislation will work to improve 
processes at the State Department for identifying and fixing 
vulnerabilities and utilize best practices to advance data 
security within the Department.
    H.R. 5535, the Energy Diplomacy Act, is an important step 
to furthering U.S. energy diplomatic priorities by codifying 
provisions within the State Department dedicated to energy 
matters.
    In the 21st century it is beyond clear the importance of 
energy development and security. Ensuring that the State 
Department has leadership and the capacity to appropriately 
handle these issues is necessary for the many challenges our 
country may face in the coming years.
    Finally, Mr. Chairman, H.R. 5681, the Global Engagement 
Center Authorities Act, will strengthen the Center's ability to 
counter foreign propaganda and disinformation by giving it the 
authority to direct and coordinate Federal efforts to counter 
propaganda.
    At a time where it often seems that the truth is under 
attack, it is important that our efforts to promote accurate 
information are coordinated and disseminated in the best 
methods. The authorities of the Global Engagement Center will 
help to improve upon best practices and work to stop the spread 
of false information.
    Thank you, Mr. Chairman, and I yield back the remaining 
part of my time.
    Chairman Royce. Thank you, Mr. Espaillat. I appreciate it.
    We go to John Curtis of Utah.
    Mr. Curtis. Chairman Royce and Ranking Member, thank you 
for holding this important markup today.
    As the Foreign Affairs Committee moves six bills forward 
with bipartisan support today, I want to speak specifically 
about H.R. 5141, the United States-Israel Security Assistance 
Authorization Act, of which I am a cosponsor. I want to thank 
Representative Ros-Lehtinen and Representative Deutch for their 
leadership in introducing this bill.
    I am a strong supporter of the U.S.-Israeli alliance. 
Having just returned from the Middle East, I am more concerned 
about Iran's aggression in the region and more committed than 
ever to strengthen U.S.-Israeli security cooperation.
    H.R. 5141 reauthorizes and improves defense and security 
assistance for Israel through the year 2023. Among many other 
important provisions, this bill also strengthens U.S.-Israel 
cybersecurity cooperation and extends the War Reserves 
Stockpile authority for the benefit of both the United States 
and Israel.
    I encourage my colleagues on this committee to support this 
critical legislation.
    Thank you, Mr. Chairman. I yield my time.
    Chairman Royce. Thank you, Mr. Curtis.
    We go now to Mr. Brad Sherman of California.
    Mr. Sherman. Mr. Chairman, excellent slate of bills. I 
commend everyone who is involved. I support them all. I have 
cosponsored most.
    I want to focus first on the BUILD Act. You and I have been 
working to reauthorize OPIC back from over a decade ago. We had 
a bill that passed this committee and passed the House and then 
was held up in the Senate to reauthorize OPIC, the most 
unfortunately named, and now to be renamed, organization in the 
Federal Government. The failure of the Senate to take up that 
bill is further proof of the desirability of a unicameral 
legislature.
    The BUILD Act that is before us starts by saying that the 
new DFC, Development Finance Corporation, will carry on the 
policies adopted by OPIC. That is particularly important 
because OPIC included in its policies many of the provisions of 
the bill that you and I, Mr. Chairman, had back a decade ago.
    They have given me further assurance as to two of their 
policies.
    The first one commits them to continuing their policy of 
not participating in a project in the Caucasus that 
deliberately excludes Armenia. That is to say, a transportation 
project that skirts around Armenia tying Georgia and Azerbaijan 
together, rather than going through Armenia. And the second 
relates to their environmental policy.
    In addition, I would like to thank you for including in the 
en bloc four of my amendments on this bill.
    The first and most important requires the agency to take 
into consideration--first, it requires them to get a 
certification that its beneficiaries do not conduct any 
activity subject to U.S. sanctions. And this is, I think, a 
change and improvement in precedent, requires that 
certification to apply on behalf of--the beneficiary to certify 
on behalf of itself and all of its affiliates up and down the 
chain.
    That is an important provision, especially as we continue 
to use sanctions to achieve our foreign policy objectives.
    Second is that the agency will take into consideration 
whether the country engages in a boycott against a friendly 
U.S. country. Of course the Export Administration Act already 
prohibits U.S. companies from doing this, especially prohibits 
them from complying with the Arab League boycott of Israel. It 
is common sense that the new DFC selects projects with that in 
mind.
    Third, it is important that the report that the DFC sends 
us includes a report on how well its projects focus on human 
rights, labor, environment, and social policies.
    And finally, when it comes to the makeup of the board, we 
should take into consideration not only banking acumen and 
experience, but experience in environmental development and 
labor experience. It is so important that we include people on 
this board focused on American jobs.
    As to the Global Engagement Center Authorities Act, I want 
to condemn--commend--Representatives Schneider and Lieu for 
drafting this. And I want to commend the recorder for recording 
my words accurately and noting that I used the word 
``commend.''
    In particular, I want to thank the chairman for including 
in the en bloc my amendment to say that we will support 
communicating in provincial languages, not just the leading or 
official language of any particular country. It is particularly 
important with regard to Pakistan that we reach out in Sindhi 
and other regional languages of Pakistan.
    Finally, Mr. Chairman, we are taking up the Energy 
Diplomacy Act. It is critical that we have a diplomacy focused 
on energy, but the most important part of that is nuclear 
energy and the risk of nuclear proliferation. And I would hope 
that we would have hearings on the possible nuclear cooperation 
agreement with Saudi Arabia.
    Chairman Royce. Well, thank you. I will share with the 
gentleman that in our prior roles, by the way, for the members 
here, as chairman and ranking member of the Nonproliferation 
Subcommittee, Mr. Sherman and I have worked on this issue, and 
we held a number of, I thought, critical hearings on this 
issue.
    I share your concern, as you know, Mr. Sherman, that we 
need to prevent more countries that currently lack the capacity 
from undertaking enrichment and undertaking reprocessing.
    So, as you know, the Subcommittee on the Middle East and 
North Africa held a hearing several months ago on this issue on 
the proposed 123 agreement. And under the Atomic Energy Act, 
this committee is required by law to hold a hearing on any 123 
agreement that the U.S. negotiates with another country and 
transmits to Congress.
    So I can assure my colleagues----
    Mr. Sherman. Mr. Chairman, I would hope that we would have 
a hearing before the agreement is sent to Congress, because 
that is when the hearing can enlighten the administration as to 
what ought to be in that agreement. Once the agreement is 
submitted to Congress, in the past it has been, well, not a 
fait accompli, but Congress is in less a position to get the 
right kind of agreement after it has already been signed by the 
executive.
    Chairman Royce. We are glad to take that under 
consideration. We will talk with you and Mr. Engel, certainly, 
Mr. Sherman.
    Mr. Sherman. Thank you.
    Chairman Royce. Thank you.
    Mr. Sherman. I yield back.
    Chairman Royce. All right. We go now to Mr. Ted Poe, I 
think is next, from Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    I am pleased to be an original cosponsor of Mr. Yoho's 
bill, the BUILD Act and commend him for his lead in it. The 
bill provides much needed reform on how we invest in 
development dollars abroad. When we provide loans and financial 
assistance to foreign partners, our goal should always be to 
move them from aid recipients to prosperous self-sufficient 
economies.
    Having oversight of the Overseas Private Investment 
Corporation, or OPIC, I have seen the need to consolidate our 
development financial institutions to better compete with 
global rivals. In its place, a more efficient agency will be 
created that can allow improved oversight of U.S. financial 
support and capital.
    With the BUILD Act and the creation of the U.S. 
International Development Finance Corporation, we have a 
powerful new foreign policy tool. By spurring market-based 
economic growth and private sector development, the U.S. can 
build strong independent partners around the world. This 
reduces the burden on the U.S. in the long run, and it directly 
strengthens our national security.
    When States are economically prosperous and not vulnerable 
to predatory foreign powers hoping to manipulate weaker States 
for their strategic gain, it makes America safer and regions 
more stable.
    As chairman of the Terrorism, Nonproliferation, and Trade 
Subcommittee, I like the idea of getting our friends abroad 
from aid recipients to trade partners. The free flow of trade 
is a great way to forge stronger relations between nations, 
preserve peace, open new markets for American products.
    I am also proud to, once again, work with Representative 
Connolly to ensure that transparency and accountability of our 
Government's programs. I have joined him in introducing an 
amendment to this important bill that will ensure that the new 
development finance institution established by this legislation 
will be subject to the same transparency and accountability 
standards and guidelines that became law as a result of the 
Foreign Aid Transparency and Accountability Act where we were 
both the original cosponsors. So I thank Mr. Connolly for 
introducing this important amendment.
    I am also pleased to support H.R. 5141, the U.S.-Israel 
Security Assistance Act introduced by Chairman Ros-Lehtinen. 
Israel is our most trusted and reliable ally in the Middle 
East. And since its establishment, it has been under constant 
siege by neighboring adversaries that hate Israel because it is 
a democratic and a Jewish state. Outnumbered and facing attack 
on nearly all sides, Israel's security situation is unique in 
the world, and their intelligence is excellent.
    I personally am grateful for the intel Mr. Netanyahu has 
supplied the United States on Iran and its quest for nukes. We 
also must maintain a military advantage over its foes. Israel 
needs to be an industrial might that we can provide help to. By 
keeping Israel secure and capable of deterring potential foes 
like Iran and its proxies, we preserve peace in the region, and 
we really further our own security.
    Israel is an outpost of democracy and freedom in a troubled 
region that shares our values and faces many of the same 
dangers we face, and has faced those dangers since 1948 when it 
became a nation.
    Our close defense cooperation has created numerous game 
changing technologies that have been used to not only defend 
Israel, but strengthen our military aides as well.
    For decades, it has been our policy to ensure Israel is 
dominant on the battlefield. If it wasn't, we would have to 
send U.S. military to protect it. Israeli friends have always 
made it clear they don't want Americans to fight their battles 
for them, they just need tools to defend themselves.
    Through this bill, we will continue to improve the 
tradition of strongly supporting Israel. H.R. 5141 will 
enshrine another decade of foreign military financing to the 
Jewish state, streamline the transfer of military materials so 
Israel can utilize American when we need it most.
    I might add that much of the money that we send to Israel 
is spent here in the United States for military development.
    This bill also will increase our cooperation with Israel on 
combating cyber and drone threats, expanding space exploration, 
provide foreign assistance in areas where we share common 
goals. So our relationship with Israel continues to be 
beneficial to both nations.
    This bill will ensure the U.S.-Israeli alliance continues 
far into the future, that Israel has the capability to defend 
itself against any foe, and put other nations on notice that 
the United States totally supports our friend and ally, Israel.
    And I will yield back.
    Chairman Royce. Thank you, Mr. Poe.
    Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Chairman Royce. And I am in 
another committee where we may have a vote. If I have to leave, 
I apologize, mid sentence.
    But I want to thank the chairman and ranking member for 
convening today's markup and for their leadership in this 
committee. I am pleased to support all of the bills in today's 
en bloc package, which includes some legislation I have 
introduced.
    Every week, we seem to learn more about the sophisticated 
network of social media bots and online ads used to spread 
misinformation during the 2016 election. And our intelligence 
chiefs are unanimous that Russia views the 2018 elections as a 
target for further interference. The State Department's Global 
Engagement Center, GEC, was created in 2016 to lead the United 
States' effort to counter propaganda and disinformation from 
foreign actors. Alarmingly, The New York Times reported in 
March of this year that the State Department didn't spend any 
of the $120 million available since late 2016 to counter 
Russian information warfare efforts, nor did it recruit a 
single analyst in the GEC who speaks Russian.
    This is not a partisan issue. It is of great importance to 
anyone who has an interest in protecting our democracy. The 
actions of our State Department need to reflect that urgency. 
The Global Engagement Center Authorities Act of 2018 would 
strengthen the current statute that initially authorized the 
GEC and will better equip the office to carry out its important 
mission. The bill also strengthens the Foreign Affairs 
Committee's oversight of the GEC by requiring notification of 
funding transfers and annual briefings from the State 
Department on the Center's activities. The Global Engagement 
Center is an important tool in our efforts to counter foreign 
misinformation campaigns and propaganda.
    I want to thank my colleagues, Representative Ted Lieu and 
Representative Adam Kinzinger, for their previous work in 
support of this legislation, and the chairman and ranking 
member for including this bill today. I hope we can work 
together to make the GEC an even more effective resource.
    I am also pleased to support the U.S.-Israel Security 
Assistance Authorization Act, which enhances Israel's ability 
to defend herself against mounting regional threats. As 
Hezbollah and Hamas continue to grow their weapons arsenals and 
Iran becomes even more entrenched in Syria, the United States 
must ensure that her greatest ally in the Middle East has the 
ability to defend herself against these challenges.
    Last year, I introduced the Defending Israel's QME Act to 
strengthen the process that ensures Israel's qualitative 
military edge over other countries in the Middle East. I am 
pleased that a portion of my bill has been included in the 
United States-Israel Security Assistance Authorization Act so 
that we can continue to ensure Israel has the tools to maintain 
its QME over those who seek to do her harm.
    Thank you, again, to the chairman and ranking member for 
convening today's markup and for your support of my 
legislation.
    With that, I yield back.
    Chairman Royce. Thank you, Brad.
    We go now to Mr. Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    And I want to thank specifically, before he leaves, my 
colleague, Mr. Schneider, for helping me help work on his fine 
piece of legislation, 5681. I want to speak briefly, Mr. 
Chairman, to the nature of propaganda and inference in our 
Nation. It has been my honor as a member of this committee to 
have engagement with a number of leaders from around the world, 
but most specifically, in this instance with the leaders from 
the Baltic Nations, Latvia, Lithuania, and Estonia, who could 
each tell horror stories about Russian interference.
    And I want to speak candidly to the bipartisan nature of 
Mr. Schneider, Mr. Kinzinger, and Mr. Lieu's work here. There 
is absolutely no doubt that there was inference in American 
elections in the last election cycle and that there will 
probably be so in the future. Having said that, I want to speak 
to the nature of that inference as I understand the 
understanding of Nations who have been subject to this sort of 
inference for far longer than we. And that is not so much to 
target one particular party or individual, but instead, to sow 
chaos, discord, and undermine the confidence and functioning 
liberal democracies, which is, indeed, inherently dangerous in 
and of itself, but a correction, I think, of the record of some 
and not my colleague, whose fine legislative effort this is.
    And so, I think those words need to be spoken. And I would 
commend Mr. Schneider again, as well as Mr. Kinzinger and Lieu 
on this legislation, as well as the chair and ranking member 
for bringing it forward. We need to address this because we 
have something special here that is worth striving to maintain 
and, in fact, modeling for the remainder of the world. Which 
brings me to the BUILD Act, Mr. Chairman, H.R. 5141.
    Israel is not perfect, nor is the United States. However, 
we do have commonalities of interest and values. Functioning 
democracies wherein people, regardless of their ethnic 
background or religious background who choose to participate 
without violence and intend to harm others are tragically rare, 
unfortunately, even in 2018.
    And so where we can undergird those who share our values 
and, indeed, in the case of Israel, who lack a mirror-like 
entity for thousands of miles in any direction, where we can 
undergird those who help to undergird the other reasonable 
moderate regimes in the region, for example, Jordan, who relies 
largely on the existence of Israel to perpetuate their own 
nation state; where we can undergird those values that help to 
spread opportunity to peoples across world, even where they are 
enforced and implemented by imperfect people such as ourselves, 
we should do so. Which brings me ironically, finally, to my 
commentary on H.R. 5105.
    The BUILD Act creates a circumstance wherein individuals 
are lifted up. I hear, oftentimes, from people who don't 
understand sort of my political philosophical vent, that we 
need to spend our money here at home. However, it is 
innumerable the number of dollars saved by stewarding good 
resources for use abroad.
    And my colleague, Ms. Frankel, speaks passionately of 
creating opportunities for women globally, and I could not 
concur more. But let me take that a step further.
    Where there is opportunity for women, there is a reduction 
in radicalization. Where there is opportunity for women, there 
is a growth in economic opportunity and empowerment across the 
Nation. And where there is opportunity for women, there is a 
growth of the class of people as opposed to the autocratic 
ruling class that leads to the empowerment of nations who will, 
with the proper shepherding, one day be the very constructive 
trade partners to which many of my colleagues had made 
reference.
    So with that, in closing, I thank the chairman, the ranking 
member, and my colleagues. It is indeed a delight to come into 
this committee room, or any committee room in this day and age, 
and find such broad bipartisan consensus on such important 
issues, and that makes me feel good.
    Thank you.
    Chairman Royce. Thank you, Mr. Garrett.
    We go to Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman. Thank you and the 
ranking member and the sponsors of this legislation. I am a 
cosponsor of several of the bills before us, and I support all 
of the ones that we are going to be voting on today.
    I would just like to say for the record that I hope that 
the Assistant Secretary of State for Energy Resources that is 
authorized by H.R. 5535 will keep in mind the impacts of 
climate change as he or she pursues U.S. energy security 
interests abroad.
    As I look at the specific responsibilities laid out for 
this office with respect to international energy policy and 
security, I see several that stand out where this consideration 
would be very important, supporting the development of energy 
resources for the benefit of the U.S., our allies, and trading 
partners, promoting the availability of diversified energy 
supplies, supporting the economic and commercial interest of 
Americans operating in energy markets of foreign countries, and 
certainly, coordinating energy security currently undertaken by 
other bureaus and offices in the State Department.
    So with that admonition to the person occupying this 
position, I would say I support the bill and yield back.
    Ms. Ros-Lehtinen [presiding]. Thank you very much.
    And now we go to Mr. Meadows of North Carolina.
    Mr. Meadows. Thank you, Madam Chair. And I want to thank 
you for your leadership, not only on this particular measure, 
but on a number of measures as it relates to our most trusted 
ally in the Middle East, the nation of Israel. And certainly, 
as we look at the Israel Security Assistance Authorization Act, 
it is an essential step in continuing our commitment to our 
ally Israel. My amendment actually makes the policy of the 
United States even further expanded by ensuring that a long-
standing partnership extends best practices between law 
enforcement personnel in each of our Nations as they undertake 
the increasingly complex antiterrorism missions. Inclusion of 
Israel into our network of international law enforcement 
academies will help Israel and the United States collaborate 
together to confront terrorists organizations, and certainly, 
international drug trafficking groups.
    Further, my amendment supports Secretary Pompeo's efforts 
in the Middle East through the international narcotics control 
and law enforcement program. So I appreciate the hard work of 
the committee members and the staff on this legislation, and I 
would strongly urge not only support of this amendment, but the 
underlying bill.
    And I thank the chairwoman for her leadership, and I yield 
back.
    Ms. Ros-Lehtinen. Thank you, Mr. Meadows.
    And now we go to Mr. Keating of Massachusetts.
    Mr. Keating. I would like to thank the chair. I would like 
to thank the ranking member for holding this markup and their 
work on all the bills that are in front of us. I would also 
like to congratulate Representatives Ted Yoho and Adam Smith 
for their work on the BUILD Act, which I am a cosponsor of, and 
has been addressed many times in terms of its merits earlier 
today.
    I would like to thank the chairman and his staff, in 
particular, for working with me to include my amendments in the 
en bloc this morning. They do more than just reflect our 
country's values. But they help guarantee success. My 
amendments focus on accountability and risk management making 
sure that those at the heart of any development work. That the 
people, the workers, their communities are the major focus of 
the corporation's work. Development efforts fail when there is 
insufficient attention to workers' rights, environment 
protection, or human rights. That is because developmental work 
and the economic growth that it is meant to create is 
sustainable only when there is someone there to sustain it.
    If you don't protect and invest in local populations and 
their communities through development and economic growth, 
those ends, those goals, won't succeed, and that will disappear 
the second that those main tenets and values disappear. One of 
my amendments requires that, as the corporation works to manage 
risk, that must include environmental and social risks. If our 
goal is to achieve effective sustainable development, we can't 
afford environmental and social harms any more than we can 
afford financial costs.
    Poisoning the water supply of a town is going to sideline 
any contributions people can make to furthering their own 
community's economic growth. Workers' rights, environmental 
protections, social issues are just as important as any 
financial metrics to the bottom line of these investments. It 
is, therefore, important that they are part of the 
corporation's reviews that are submitted to Congress every 
year. Another one of my amendments offered and included in the 
en bloc today does just that.
    Finally, accountability is an important piece of any 
successful endeavor, especially in development. OPIC created an 
independent accountability mechanism in 2004 that served to 
promote and defend high standards of labor, human rights, and 
environmental protection, among other key issues. By providing 
a forum for addressing complaints, and by monitoring compliance 
with and offering guidance on those standards, an 
accountability mechanism helps to make these development 
programs as effective as possible. My amendment ensures this 
accountability mechanism continues on in serving the 
corporation's mission.
    So in conclusion, I would like to thank all the people that 
worked so hard on the bills and support, and give my support to 
all the bills in front of us today. I think it is an example of 
the strong bipartisan effort that this committee shows time and 
time again.
    I yield back.
    Ms. Ros-Lehtinen. The gentleman yields back. Mr. Donovan of 
New York.
    Mr. Donovan. Thank you, Madam Chairwoman.
    Effectively countering propaganda is one of our first lines 
of defense against terrorism. Today, it only takes a simple 
click to upload viral videos and social media posts that 
highlight extremist views, recruit terrorists, or instruct 
followers on how to carry out an attack.
    Jihadist terrorists are increasingly using this viral and 
fashionable format to spread their methods for mayhem across 
the internet to Western audiences. Al Qaeda employed Samir 
Khan, a Pakistani American to launch its first Web magazine, 
Inspire, in 2010. ``Make a Bomb in the Kitchen of Your Mom'' 
was the featured article with the byline of ``the AQ Chef.'' 
The piece, which was written and published in English, was 
eventually used to manufacture the bombs at the Boston 
Marathon. This one example makes clear that Jihadi terrorist 
propaganda cannot be ignored, and that the United States must 
enhance its ability to counter it.
    The purpose of the Global Engagement Center housed within 
the State Department is to counter Jihadi and State-sponsored 
terrorist propaganda. That is why I support H.R. 5681, the 
Global Engagement Center Authorities Act of 2018.
    I also strongly support H.R. 5141, the United States-Israel 
Security Assistance Authorization Act of 2018. The purpose of 
this bill is to ensure that Israel has the ability to defend 
itself through increased security assistance. And Israel's very 
existence is under daily threat from a multitude of enemies, 
but none so persistently dangerous and devious as Iran.
    Under the Obama administration, our Nation placated Iran 
and emboldened the regime's bad behavior. The previous 
administration believed that the $120 billion given to Iran 
under the flawed Iran nuclear deal would be used to help 
address domestic needs in a floundering economy. They were 
sadly mistaken. President Obama's weak stance on Iran not only 
impacted U.S. and Israel national security efforts, but it also 
hurt the Iranian people.
    Here is the reality of how the Iranian regime, a known 
state sponsor of terror, spent its billions in aid. According 
to a senior Iranian cleric cited in a 2014 Washington Post 
article, Iran provided over $1 billion in military aid alone to 
Iraq. Iran funds Assad, who has brutally decimated his own 
people via chemical weapons and barrel bombs. The U.N. special 
envoy for Syria estimated in July 2015 that Iran gives Assad 
anywhere between $6 billion and $35 billion a year. Israel 
Government Minister has also told the Times of Israel that 
Iran's expenditures on Hezbollah alone totaled $1 billion per 
year. That is merely the beginning of what has been reported in 
various news outlets.
    So what do Iraq, Syria, and Lebanon hold in common for 
Iran? They shared global locations that could strategically 
allow Iran a clear direct path to Israel. It is no secret that 
Iran wants nothing more than to destroy Israel. Iran's attempt 
to build a land bridge from Iraq to Syria to Lebanon to Israel 
represents a dangerous turbulent development that the U.S. must 
counter to defend our staunch ally, Israel. As demonstrated by 
the United States Security Assistance Authorization Act, 
America's commitment to Israel is absolute and unwavering.
    And with that, Mr. Chairman, I yield the remainder of my 
time
    Chairman Royce. Thank you.
    We go now to Norma Torres of California.
    Mrs. Torres. Thank you, Mr. Chairman. I want to thank you, 
the ranking member, the majority and minority staffs for their 
hard work on all the bipartisan bills that we are considering 
here today. In particular, I am pleased that we are advancing 
the Israel Security Assistance Act thanks to the great work of 
our chair, Ileana Ros-Lehtinen, and Ranking Member Ted Deutch. 
This bill will keep our security cooperation with Israel strong 
for many years to come.
    As Israel faces growing threats from Iran and its many 
proxies, we must continue to stand with our ally. I am so proud 
to cosponsor this bill, and I urge all of my colleagues to 
support it. I am also glad that we are marking up the BUILD 
Act, which will ensure that the United States continues to be a 
leader in a field of development finance. And I applaud 
Chairman Yoho for his initiative, and I thank him for accepting 
my amendment to the bill.
    My amendment would ensure that the new development finance 
institution is careful to avoid doing business with bad actors, 
such as terrorists, drug dealers, or corrupt government 
officials.
    Last month, when this committee held a hearing on the 
administration's development finance proposal, I voiced my 
concerns with a specific OPIC-supported project in Guatemala. 
Since then, Mr. Chairman, I want to report to you that OPIC has 
answered many questions from my office on this case, and I 
appreciate their transparency. And I am reassured that there 
are many people working there who are committed to doing due 
diligence.
    As many of you know, corruption is a very serious issue in 
Guatemala. In recent years, though, we have seen some real 
progress. The International Commission Against Impunity in 
Guatemala, CICIG, has been working with local police and 
prosecutors to uncover networks of corruption and to bring 
about important reforms.
    Congress has supported CICIG on a bipartisan basis. Many 
members of this committee have supported CICIG. And we have 
seen some very positive results. Violent crime, for example, is 
down. The people of Guatemala had seen that no one is above the 
law. The Guatemalan people fight against corruption, has given 
the young people of that country great hope. And we must build 
on this progress. We cannot and must not allow it to be turned 
back. The cost of giving up now is simply too high, and we must 
be vigilant about who we are doing business with in Guatemala, 
or any other country around the world where corruption is a 
major problem.
    So I urge my colleagues to support my amendment, and I 
support all of the measures that are before us today.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you very much, Congresswoman Torres.
    Hearing no further requests--oh, Mr. Ted Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    I want to, first of all, thank the chairman and ranking 
member for having this hearing, and pleased that we are moving 
forward six pieces of strong legislation to improve our 
national security. I would like to talk about two of these 
bills. The first is H.R. 5433, the Hack Your State Department 
Act. I would like to thank the chairman for calling this bill 
up, and to also thank my colleague, Ted Yoho of Florida. We are 
co-leading this piece of legislation.
    Over the years, the State Department has faced mounting 
cybersecurity threats from both criminal enterprises and state-
sponsored hackers. As an agency with a critical national 
security role, we must do more to protect its cybersecurity.
    As a computer science major, I recognize there are proven 
tools at our disposal to improve cybersecurity that the 
Department has yet to adopt. One such tool is to enlist the 
help of America's top security researchers to find weaknesses 
in our cybersecurity.
    The first step of this bill is to establish what is called 
a vulnerability process, which sets clear rules of the road so 
that when people outside the Department discover 
vulnerabilities on systems, they can report it in a safe, 
secure, and legal manner with the confidence that the 
Department will actually fix the problems.
    The second step is to actually pay vetted white hat hackers 
to find vulnerabilities. The Department of Defense proved the 
success of the bug bounty program back in 2016.
    Over a 24-day period, the Pentagon learned of and fixed 
over 138 vulnerabilities in its systems. The 2017 report to the 
President on Federal IT modernization stated agencies must take 
a later approach to penetration testing. At a bare minimum, 
agencies should establish vulnerability disclosure policies. 
Agencies should also identify systems that are appropriate to 
place under public bug bounty programs such as those run by the 
Department of Defense or GSA.
    And today with this legislation, our committee is taking 
these recommendations to heart in helping to improve the State 
Department with respect to cybersecurity.
    The second bill I would like to talk about is the Global 
Engagement Center bill. Two years ago, I worked with 
Congressman Adam Kinzinger on legislation to task the State 
Department with leading efforts to counter disinformation and 
propaganda around the world. The Global Engagement Center was 
established to lead a whole of government response.
    I am grateful now to be partnering with Representative 
Schneider to strengthen the Global Engagement Center within the 
Department of State, because it will serve as a vital tool to 
counter foreign interference in our upcoming elections.
    And also, finally I would like to talk about an amendment 
that the chair and ranking member have included in this 
package. It is an amendment to H.R. 5677, to strengthen the 
reporting requirements under what is referred to as the Leahy 
law, a landmark law that prohibits the U.S. Government from 
providing assistance to foreign military units that are found 
to have committed gross human rights violations.
    My amendment today will narrow the exceptions to the public 
reporting under Leahy law to meet its objectives. It asks the 
State Department to disclose publicly the units of foreign 
militaries that are banned from receiving U.S. assistance. This 
information will also serve to unify our efforts with key 
training allies in global hotspots, allies such as the U.K. and 
France. Importantly, we will still provide exceptional 
disclosure when doing so would reveal intelligent sources and 
methods.
    Thank you again, Mr. Chair. And with that, I yield back.
    Chairman Royce. Thank you, Colonel Ted Lieu.
    Now, with no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it, and the 
measures considered en bloc are agreed to. Without objection, 
the measures considered en bloc are ordered favorably reported 
as amended. Staff is directed to make any technical and 
conforming changes, and the chair is authorized to seek House 
consideration under suspension of the rules. And so that 
concludes our business for today. I thank the members and our 
ranking member for their contribution and assistance with this 
markup today.
    The committee is adjourned.
    [Whereupon, at 11:34 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]



</pre></body></html>
